<html>
<title> - SEAN AND DAVID GOLDMAN INTERNATIONAL CHILD ABDUCTION PREVENTION AND RETURN ACT OF 2013; VIETNAM HUMAN RIGHTS ACT OF 2013; AND CONCERNING THE ONGOING CONFLICT IN THE DEMOCRATIC REPUBLIC OF THE CONGO AND THE NEED FOR INTERNATIONAL EFFORTS TOWARD LONG-TERM PEACE, STABILITY, AND OBSERVANCE OF HUMAN RIGHTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  SEAN AND DAVID GOLDMAN INTERNATIONAL CHILD ABDUCTION PREVENTION AND 
 RETURN ACT OF 2013; VIETNAM HUMAN RIGHTS ACT OF 2013; AND CONCERNING 
 THE ONGOING CONFLICT IN THE DEMOCRATIC REPUBLIC OF THE CONGO AND THE 
 NEED FOR INTERNATIONAL EFFORTS TOWARD LONG-TERM PEACE, STABILITY, AND 
                       OBSERVANCE OF HUMAN RIGHTS

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                  H.R. 1951, H.R. 1897 and H. Res. 131

                               __________

                              MAY 15, 2013

                               __________

                           Serial No. 113-68

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
80-939                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e384938ca3809690978b868f93cd808c8ecd">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1951, To ensure compliance with the 1980 Hague Convention on 
  the Civil Aspects of International Child Abduction by countries 
  with which the United States enjoys reciprocal obligations, to 
  establish procedures for the prompt return of children abducted 
  to other countries, and for other purposes.....................     3
  Amendment to H.R. 1951 offered by the Honorable Mark Meadows, a 
    Representative in Congress from the State of North Carolina..    54
H.R. 1897, To promote freedom and democracy in Vietnam...........    55
H. Res. 131, Concerning the ongoing conflict in the Democratic 
  Republic of the Congo and the need for international efforts 
  toward long-term peace, stability, and observance of human 
  rights.........................................................    75
  Amendment in the Nature of a Substitute to H. Res. 131 offered 
    by the Honorable Karen Bass, a Representative in Congress 
    from the State of California.................................    82

                                APPENDIX

Markup notice....................................................    98
Markup minutes...................................................    99
  SEAN AND DAVID GOLDMAN INTERNATIONAL CHILD ABDUCTION PREVENTION AND 
 RETURN ACT OF 2013; VIETNAM HUMAN RIGHTS ACT OF 2013; AND CONCERNING 
 THE ONGOING CONFLICT IN THE DEMOCRATIC REPUBLIC OF THE CONGO AND THE 
 NEED FOR INTERNATIONAL EFFORTS TOWARD LONG-TERM PEACE, STABILITY, AND 
                       OBSERVANCE OF HUMAN RIGHTS

                              ----------                              


                        WEDNESDAY, MAY 15, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 11:30 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. We are here this morning to mark up H.R. 1951, 
Sean and David Goldman International Child Abduction Prevention 
and Return Act of 2013; H.R. 1897, Vietnam Human Rights Act of 
2013; and H. Res. 131, Concerning the ongoing conflict in the 
Democratic Republic of the Congo and the need for international 
efforts toward long-term peace, stability, and observance of 
human rights.
    As our members are aware, these measures enjoy strong 
bipartisan support and there are competing hearings and other 
events taking place this morning. Thus, as our members were 
informed earlier this week, it is the intent of the Chair to 
consider these measures en bloc, including the substitute 
amendment sent to you on Monday, offered by my good friend and 
colleague, Ms. Bass, and an amendment by Mr. Meadows, sent to 
you on Tuesday.
    All members have copies of these documents before them. 
After we have concluded our expedited consideration, I would be 
glad to recognize any member, including myself and the ranking 
member, for any statements on the issues.
    All members are given leave to insert written remarks into 
the record, should they choose to do so. Seeing that we have a 
reporting quorum present, without objection, the following 
measures are considered as read and will be considered en bloc: 
H.R. 1951, Sean and David Goldman International Child Abduction 
Prevention and Return Act of 2013; the Meadows amendment number 
4 to H.R. 1951, sent to members' offices on Tuesday; H.R. 1897, 
the Vietnam Human Rights Act of 2013; H. Res. 131, Concerning 
the ongoing conflict in the Democratic Republic of the Congo 
and the need for international efforts toward long-term peace, 
stability, and observance of human rights; and the Bass 
amendment number 11 to H. Res. 131 sent to your offices on 
Monday.
    [The information referred to follows:]<greek-l>H.R. 
1951 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Meadows amendment to H.R. 1951 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 1897 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H. Res. 131 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Bass ANS to H. Res. 131 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Smith. The Chair moves that the en bloc items be 
adopted. All those in favor say aye. Aye. All those opposed say 
no. The ayes have it, in the opinion of the Chair, and the 
items considered en bloc are adopted. Without objection, the 
measures as amended are reported favorably to the full 
committee. The staff is directed to make technical and 
conforming changes.
    I would note that now that we have completed our formal 
consideration of those measures, I will recognize members for 
remarks. And recognize myself first on behalf of the first bill 
that was just passed on to the full committee.
    It was David Goldman's unrelenting effort to bring his son, 
Sean, home from Brazil that first alerted me to the epidemic of 
international parental child abduction in this country. 
According to the U.S. Department of State, between the years 
2008 and 2012, bereaved, left-behind parents like David Goldman 
reported over 4,800 abduction cases involving more than 7,000 
children. I had the privilege of joining David Goldman in his 
fight to return Sean and experienced firsthand the maddening 
obstacles encountered by left-behind parents, even in countries 
that have signed the Hague Convention on international child 
abductions: Foreign courts, endless appeals to run out the 
clock, exploitation of the safeguards in the Convention, and 
prejudice against foreigners.
    The damage to the child and the left-behind parents is 
incalculable, and too often, lifelong. The children are at risk 
of serious emotional and psychological problems and may 
experience anxiety, eating problems, nightmares, mood swings, 
sleep disturbances, aggressive behavior, resentment, guilt, and 
fearfulness. Parental child abduction is child abuse. These 
victims are American citizens who need the help of their 
government when normal legal processes are unavailable or fail.
    Too many families have been waiting too long for the return 
of their children. Our current system with its endless delays 
and lack of proper accountability has failed far too many. It 
is time for the approach that backs our demands for adherence 
to international obligations with some penalties and makes 
clear to foes and friends alike that our children are our top 
priority.
    As stated in the legislation, it has several purposes. 
First, we want to protect children whose habitual residence is 
the U.S. from the harmful effects of abduction and to assist 
left-behind parents to have access to their abducted children 
in a safe and predictable manner, wherever the child is located 
while an abduction case is pending. We want to provide left-
behind parents, their advocates, and judges the information 
they need to enhance the resolution of abduction cases and 
access cases through established legal procedures and the tools 
for assessing the risk of abduction and denial of rights of 
access, and the practical means for overcoming obstacles to 
recovering an abducted child.
    We seek to provide the necessary training for officials of 
the U.S. Armed Forces and the Department of Defense to 
establish policies and provide services to parents serving in 
our military that address the unique circumstances of 
abductions and violations of rights of access that may occur 
with regard to military dependent children.
    Additional purposes of the bill would be to establish 
measured, effective, and predictable actions to be undertaken 
by the President on behalf of abducted American children and to 
promote an international consensus that it is in the interest 
of children to have any issues related to their care and 
custody determined in the country of their habitual residence.
    Finally, the bill would encourage the effective 
implementation of international mechanisms, particularly those 
established pursuant to the Hague Abduction Convention, to 
achieve reciprocity in the resolution of abductions and to 
protect children from the harmful effects of abduction.
    The Goldman Act gives the President important tools to 
motivate other countries to quickly respond to applicants for 
an abducted child's return. For even one case that has been 
pending for over 6 weeks in a foreign country's judicial 
system, the President may choose to at least issue a private 
demarche or take more serious actions commensurate with the 
gravity of the case.
    If a country has 10 or more cases of children abducted from 
the U.S., pursuant to this legislation, and those cases are not 
being resolved in a timely manner or the entity responsible for 
working with the United States, the central authority, the 
judiciary, or law enforcement are persistently failing to 
fulfill their obligations, the President can take measured, 
effective, and predictable actions to aggressively advocate for 
our children's return. Actions range from denial of certain 
assistance to prohibiting the procurement of certain goods or 
services from the government or the instrumentality response 
for the pattern of what we call noncooperation.
    The President is required to request a consultation with 
any government concerned and report to Congress when 
contemplating serious actions. The President is also provided 
with certain waiver authorities that take into account the 
important national interests of the United States. However, the 
expectation is that the President will use all tools necessary 
to bring our children home in a timely manner and that the 
President will have to explain the minority of cases where one 
of the 18 delineated tools or commensurate action cannot be 
used.
    I want to thank Mr. Meadows for his valuable amendment to 
the bill, which calls on the Government Accountability Office 
to report to Congress on Egypt's cooperation or facilitation of 
parental child abduction. Last week, the subcommittee heard 
compelling testimony of Mr. Colin Bower, whose two boys were 
abducted to Egypt in 2009. Mr. Bower indicated that Egypt has 
aided and abetted in the kidnapping and illegal holding of his 
sons, including by issuing false Egyptian passports for the two 
boys and by allowing them to exit the U.S. on the Egyptian 
Government-owned airline, EgyptAir. It will be very helpful to 
Members of Congress to receive an assessment from the GAO of 
the Egyptian Government's involvement in this and the other 
cases of child adduction from the United States.
    I yield to my friend and colleague, Dr. Bera, for any 
comments he might have.
    Mr. Bera. Mr. Chairman, thank you for convening this 
markup. I am pleased that the Foreign Affairs Committee and 
this subcommittee are proceeding with regular order as it moves 
legislation to the full committee. I want to focus for one 
moment on H.R. 1951, the Child Abduction and Return Act of 
2013. I am pleased that the subcommittee was able to focus on 
this important issue. And I support many of the provisions 
contained within the legislation. However, I believe the State 
Department has expressed some concerns and possible unintended 
consequences of this bill. The punitive measures offered to the 
President under the legislation may discourage non-party 
nations, such as India, from signing or ratifying the Hague 
Convention. As this legislation moves to full committee, I 
would like to have a better understanding of the non-signators 
and what we can do to encourage their cooperation on this 
important issue. It is important that these countries join the 
Hague Convention.
    I would also like to work with my colleagues and address 
these concerns and ensure that any legislation we pass will 
have the desired effect of reducing the number of child 
abductions. Again, thank you, Chairman Smith, for continuing 
your important work in this area. Congratulations on moving 
your legislation through the subcommittee, and I look forward 
to working with you on this important issue. I yield back.
    Mr. Smith. Thank you very much. Chair recognizes Mr. Weber.
    Mr. Weber. Mr. Chairman, thank you. I don't have any 
comments at this time.
    Mr. Smith. Okay. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And obviously, this 
committee just acted to approve three pieces of timely and 
necessary legislation that will better the lives of thousands 
of people. And I am proud that this committee has taken the 
initiative to address the ongoing humanitarian issues in 
Vietnam and in the Congo. And I want to commend the chairman 
and the ranking member for their leadership. The third bill we 
approve today, H.R. 1951, addresses parental child abduction 
and the Hague Convention. This is a good bill. I am proud to be 
a cosponsor and proud to have supported it today. I am also 
proud that we have been able to amend this bill and make it a 
little bit better. Last week, we heard powerful testimony on 
the foreign parental child abduction from parents of victims. 
And we heard that the foreign governments can often be 
complicit in these abductions, especially in non-Hague treaty 
countries. And one of those witnesses was Colin Bower. Mr. 
Bower's two sons, Noor and Ramsay, were abducted and taken to 
Egypt in 2009. They remain there today with 20 other American 
children.
    Egypt is a country that we are working with and whose 
continued solvency depends on American aid, American 
intervention. And yet we hear heartbreaking stories like Mr. 
Bower's. Thankfully, Mr. Bower did not just share his story, 
but he shared recommendations on moving forward. And one of 
those recommendations was to require the GAO to report on the 
child abductions in Egypt, including the role of the Egyptian 
Government.
    Today I offered an amendment to H.R. 1951 to do exactly 
that, and I look forward to reading the GAO's eventual report. 
And I want to thank Mr. Bower and all of those previous 
witnesses for sharing their stories. But I also want to thank 
the committee for supporting my amendment and moving this bill. 
And with that I yield back, Mr. Chairman. Thank you.
    Mr. Smith. Mr. Meadows, thank you very much and thank you 
for authoring that very important amendment to this 
legislation. With that, I recognize Mr. Stockman.
    Mr. Stockman. Thank you, Mr. Chairman, for the compassion 
you have shown through all the years you have been here in 
Congress. And I appreciate that throughout the years you have 
stuck to it and when it would have been easy to roll over to 
Ways and Means or some other ``important'' committees; and your 
compassion is demonstrated by these bills that you put forth. 
And I just want to say something quickly about our friends in 
the DRC. I have been there many times. And they have great 
potential. This nation is, you know, nearly as large as Western 
Europe. And they have a great, great potential if they adhere 
to a civil society and stick to the rule of law, and let 
democracy flourish. I think this bill is going to go a long way 
in ensuring that the DRC will be successful in achieving its 
goals.
    And I really appreciate you offering this bill. And I hope 
when it gets to the full committee that they realize the work 
and effort that you have put into this resolution. But I just 
wanted to point out the DRC has a great opportunity to take 
advantage of--and work cooperatively with the United States. 
And look forward to future hearings and testimony. Thank you.
    Mr. Smith. Thank you very much, Mr. Stockman.
    I yield to Ms. Bass to speak on H. Res. 131.
    Ms. Bass. Chairman Smith, again, thank you for holding 
today's markup. I am delighted that we have worked in a 
bipartisan manner to pass today's legislation. And did want to 
speak for a minute on H. Res. 131, Concerning the ongoing 
conflict in the Democratic Republic of the Congo and the need 
for international efforts toward long-term peace, stability, 
and the observance of human rights. As you are well aware, in 
the DRC, an estimated 5 million people, which is just an 
incredible number, have died, and some 2 million have been 
displaced due to repeated cycles of war, conflict, violence, 
particularly sexual, and gender-based violence waged against 
women and children. It is time for this crisis to come to an 
end. Today's markup takes an important step forward in efforts 
to raise awareness within the U.S. Congress and among all 
Americans of this horrific and tragic crisis.
    I was recently in the Congo and heard from many people 
there. And I have heard from the Congolese diaspora here in the 
United States about the situation in the Congo. Currently, we 
have 55 Members of the House from both parties that have 
cosponsored this bill, and I plan to continue to call for 
bipartisan support for this legislation. It is also my 
understanding that efforts are underway to introduce similar 
legislation in the Senate.
    Lastly, there has been a great deal of discussion around 
the need for a special envoy to the DRC in the Great Lakes 
region. This legislation calls for such an envoy, and Secretary 
Kerry in testimony before both the House and the Senate has 
indicated his plan to make an appointment. I am pleased that 
this effort is making progress and urge the Secretary to move 
swiftly to make his decision and develop a comprehensive 
strategy that relies on diplomacy and engagement to address the 
complex set of issues that stand as barriers to peace and 
stability in the DRC and the region.
    Thank you, and I yield back my time.
    Mr. Smith. I yield to myself such time as I may consume. I 
want to thank the ranking member, Karen Bass, for introducing 
this important resolution. And I am very pleased to be original 
cosponsor. And it is supported, I know, by members of this 
subcommittee. This measure brings attention to the continuing, 
deplorable situation in the DRC in which more than two dozen 
militias, as well as the national army itself, continue to 
terrorize the country's population. The international community 
has been outraged by the staggering rate of sexual violence, 
which reports that nearly 50 women and girls being raped each 
hour in the DRC. The atrocities also include recruitment and 
physical and psychological torture of child soldiers. H. Res. 
131 calls on the Nation of Africa's Great Lakes region, 
including the DRC Government itself, to take all necessary 
actions to live up to international law and their own 
agreements concerning noninterference in one another's affairs.
    As we found out through several U.N. investigations and our 
subcommittee's three hearings last year, this has not always 
been the case. Unregulated cross-border militia activity and 
the plundering of natural resources in the DRC have made life 
for so many Congolese, especially those in the Eastern Congo, 
all but unbearable. The trade in illicit minerals and poached 
ivory has also served to the fuel the conflict in the DRC.
    The Atrocity Prevention Board, created in 2011, to 
coordinate U.S. policy to prevent mass atrocities and serious 
human rights violations is called upon by H. Res. 131 to work 
with regional and international partners to bring the tragedy 
of life in the Eastern Congo to a definitive end. The 
Atrocities Prevention Board is directed to ``address, prevent, 
and ensure accountability for serious violations of 
humanitarian law and human rights abuses by all actors in the 
DRC.''
    While its neighbors share the blame for the international 
crisis that exists in the Great Lakes, H. Res. 131 also calls 
on the Government of the DRC to investigate and prosecute its 
own military forces and citizens responsible for human rights 
abuses and to proceed with democratic and security sector 
reforms which it has previously agreed to.
    Would anyone else like to be heard on this?
    I would like to now recognize myself to speak briefly on 
H.R. 1897. And I do want to thank my colleagues for their 
support of the Vietnam Human Rights Act of 2013. The 
subcommittee, as we all know, heard from witnesses at a hearing 
on April 11 that the Vietnam's Government continues to violate 
a broad array of fundamental human rights. The testimony we 
heard confirmed that religious, political, and ethnic 
persecution continue and that Vietnamese officials are 
complicit in human trafficking. At that hearing, just over a 
month ago, we heard from a sister of a Vietnamese woman who was 
forced to work in a brothel in Russia with 14 other Vietnamese 
women.
    At another hearing last year, we heard about a group of 
Vietnamese workers who were trafficked to Jordan. In each of 
these cases, not only did officials from the Vietnamese 
Government fail to help the victims, but they actually 
cooperated with the traffickers to keep the trafficking 
operations going. I am pleased to report that following the 
April hearing and the sister's courageous testimony, the 
Vietnamese trafficking victims who were being held in Russia 
have been freed. But the Vietnamese Government must respect the 
human rights of all of its people, not only those who are 
fortunate enough to have their human rights violations 
publicized at a congressional hearing. For this reason, I have 
reintroduced the Vietnam Human Rights Act and I am glad the 
subcommittee voted it out today.
    The purpose of H.R. 1897 is to promote the development of 
freedom and democracy in Vietnam. It seeks to do so primarily 
by stipulating that the United States can increase its non-
humanitarian assistance to Vietnam above the 2012 Fiscal Year 
levels only when the President is able to certify to Congress 
that the Government of Vietnam has made substantial progress, 
operative words, substantial progress in establishing a 
democracy and promoting human rights, including respecting 
freedom of religion and releasing all political religious 
prisoners; respecting rights of freedom of expression, assembly 
and association, and releasing all political prisoners, 
independent journalists, and labor activists; repealing and 
revising laws that criminalize peaceful dissent, independent 
media, unsanctioned religious activity, and nonviolent 
demonstrations in accordance with the international human 
rights standards; respecting the human rights of members of all 
ethnic groups, and then taking all appropriate steps, including 
prosecution of government officials, to end any government 
complicity in human trafficking. This condition on increased 
non-humanitarian assistance may be waived in the national 
interest of the United States, if any such increase is offset 
by assistance to increase training on Vietnam's international 
human rights obligations, to support noncommercial rule of law 
programming, or to support measures to overcome the Vietnamese 
Government's jamming of Radio Free Asia.
    H.R. 1897 also includes several senses of Congress. Vietnam 
has announced it is seeking membership in the U.N. Human Rights 
Council, a vote that will be held at this fall's U.N. General 
Assembly. Given the Vietnamese Government's abysmal human 
rights record, the bill calls on the Secretary of State to 
strongly oppose Vietnam's candidacy.
    The bill also indicates that Vietnam should be redesignated 
a Country of Particular Concern for religious freedom, pursuant 
to the International Religious Freedom Act of 1998, and that 
its tier ranking, pursuant to the Trafficking Victims 
Protection Act, should reflect the fact that the government is 
not making significant efforts to eliminate human trafficking.
    Again, I want to thank my colleagues for their support. I 
yield to any member who would like to speak. Mr. Meadows.
    Mr. Meadows. Mr. Chairman, I want to thank you for your 
comments and for highlighting this issue. And I have been in 
some of these hearings as we have heard the just riveting 
testimony from so many of the affected families. And time and 
time again, the recommendation was that we put forth meaningful 
legislation that does not just talk about our support for human 
rights, but really makes sure that it is measurable and that it 
has consequences. I am hopeful that we will see speedy action 
on this particular piece of legislation.
    I was unaware of many of the unbelievable atrocities that 
were happening until we heard testimony in this very room, and 
I want to thank the chairman for highlighting it, but also for 
putting forth this legislation that I hope will see an end to 
some of the unbelievable atrocities that are occurring. 
Specifically, to have an appointment of a country with the 
known violations to the Human Rights Council would be very 
problematic and would send the wrong message. So I agree and 
concur and would encourage the Secretary to oppose that until 
we see significant responses on behalf of the Vietnam 
Government. With that, I yield back. Thanking the chair.
    Mr. Smith. Are there any other members who wish to be 
heard?
    If not, I do want to thank my distinguished colleagues for 
their participation and support for these bills on both sides 
of the aisle. This markup is concluded. And we are finished.
    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
